WAIVER

Supreme Court, U.S,
FILED

NOV 2 1 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Steve Cooley, et al.

19-525
National Abortion Federation

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
i] Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

ID I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

November 21, 2019

(Type or print) Name

Derek F. Foran
l=1 Mr.

Firm

❑ Mrs.

❑ Miss

Morrison & Foerster LLP

Address

425 Market Street

City & State
Phone

D Ms.

San Francisco, CA

415-268-6323

Zip
Email

94105

DForan@mofo.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Matthew Jay Geragos, Counsel of Record for Petitioner

